. No.

3n ®t)e

Supreme Court of tfje Mntteb States!
Todd Phillippi
Petitioner,
V.

Humble Design, L.L.C.
and Warren David Humble

9

Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
APPENDIX

Todd Phillippi
Petitioner pro se
411 North 8th Street
Midlothian, TX 76065
(214) 497-8935
toddphillippi@yahoo.com
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800)847-0477

TABLE OF CONTENTS
Page
Order of the United States Court of Appeals for the Fifth Circuit,
filed 12/8/20.................................................................................................

A1

Order of the United States District Court for the Northern District
of Texas, Dallas Division, filed 2/14/17....................................................

A5

Order of the United States District Court for the Northern District
of Texas, Dallas Division, filed 3/11/20....................................................

All

Order of the United States Court of Appeals for the Fifth Circuit,
filed 4/6/21 (excerpt).................................................................................

A15

Order on Petition for Rehearing of the United States Court of
Appeals for the Fifth Circuit, filed 1/6/21.....................................

A17

Joint Stipulation of Voluntary Dismissal filed in the United States
District Court for the Northern District of Texas, Dallas Division,
filed 8/5/16......................................................................................................

A18

i

Case: 20-10386

Document: 00515664978

Page: 1

Date Filed: 12/08/2020

SJntteb States; Court of appeals
for tlje Jftftfj Circuit

United States Court of Appeals
Fifth Circuit

FILED

December 8, 2020

No. 20-10386

Lyle W. Cayce
Clerk

Automation Support, Incorporated, doing business as
Technical Support,
Plaintiff—Appellant,
Todd Phillippi,
Movant—Appellant,
versus
Humble Design, L.L.C.; Warren David Humble,
Defendants—Appellees.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:14-CV-04455

Before Wiener, Costa, and Willett, Circuit Judges.
Gregg Costa, Circuit Judge\
This case began almost six years ago when Automation Support, Inc.,
sued former employees and one employee’s new company, Humble Design,
L.L.C., under the Texas Theft Liability Act (TTLA). But what started as a
case about theft of trade secrets has mutated into a protracted dispute over
attorney’s fees—a dispute we already resolved.

A1

Case: 20-10386

Document: 00515664978

Page: 2

Date Filed: 12/08/2020

No. 20-10386

After a year and a half of litigation in the district court, the parties
agreed to voluntarily dismiss all claims with prejudice. In the joint
stipulation, defendants Humble Design and Warren Humble reserved the
right to seek attorney’s fees under the TTLA, which is a “loser pays” law.
See Tex. Civ. Prac. & Rem. Code Ann. § 134.005(b). The magistrate
judge later awarded those fees.
Multiple rounds of appeals and motions to vacate the judgment
ensued. In 2018, we affirmed the magistrate judge’s decision and remanded
for the district court to award appellate attorney’s fees. Automation Support,
Inc. v. Humble Design, L.L.C., 734 F. App’x 211, 216 (5th Cir. 2018). When
Automation Support and associated individuals1 tried, belatedly, to appeal
again, we dismissed for lack of jurisdiction. Automation Support, Inc. v.
Humble Design, L.L.C., 796 F. App’x 223, 224 (5th Cir. 2020).
Automation Support is appealing once more. The current appeal
concerns its most recent motion for relief from judgment under Rule 60(b),
in which it again argued that the magistrate judge did not have jurisdiction to
award attorney’s fees. The magistrate judge denied the motion in March
2020, and this appeal is timely only as to the order denying that Rule 60
motion. Automation Support cannot appeal the underlying judgment that
issued years ago.
To the extent Automation Support argues that the defendants were
not prevailing parties, we have already rejected that argument. See
Automation Support, 734 F. App’x at 215-16. Under the law of the case
doctrine, “ordinarily an issue of fact or law decided on appeal may not be

1 The plaintiffs in this case also include Automation Support’s owners, Renee and
Bill McElheney, and former attorney Todd Phillippi, all of whom purport to act on behalf
of the company. We refer to the plaintiffs collectively as “Automation Support.”

2

A2

Case: 20-10386

Document: 00515664978

Page: 3

Date Filed: 12/08/2020

No. 20-10386
reexamined either by the district court on remand or by the appellate court
on subsequent appeal.” United States v. Lee, 358 F.3d 315, 320 (5th Cir.
2004) (citation and quotation marks omitted); seeMusacchio v. United States,
136 S. Ct. 709,716 (2016). We held in 2018 that the defendants were entitled
to attorney’s fees. Automation Support, 734 F. App’x at 216. Our ruling was
final then and remains so today.
Automation Support’s new attack—that the Rule 41 joint dismissal
deprived the district court of jurisdiction to later award fees—is wrong. This
latest effort to undo the fee award flies in the face of well-established law that
a court can award attorney’s fees after a voluntary dismissal. See, e.g.,
Zimmerman v. City of Austin, 969 F.3d 564, 568-69 (5th Cir. 2020)
(“Ancillary enforcement jurisdiction extends to fees.”); Qureshi v. United
States, 600 F.3d 523, 525 (5th Cir. 2010) (explaining that a court retains
authority to award attorney5 s fees after a Rule 41 dismissal); see also Cooter &
Cell v. Hartmarx Corp496 U.S. 384, 395 (1990) (noting it is “well
established that a federal court may consider collateral issues after an action
is no longer pending” and listing attorney’s fees as an example).2 District
courts routinely award fees after an entry of final judgment. Cooter, 496 U.S.

2 An old Fifth Circuit decision holds that a district court lacks jurisdiction to enter
a fee award once the plaintiff files a self-executing dismissal without prejudice under
Federal Rule of Civil Procedure 4l(a)(l)(A)(i). See Williams v. Ezell, 531 F.2d 1261,1264
(5th Cir. 1976). Although the Supreme Court rejected that view in Cooter, 496 U.S. at 395,
Williams continues to cause confusion about a district court’s ability to consider fee
motions after a Rule 41 dismissal. See, e.g., Lightsource Analytics, LLC v. Great Stuff, Inc.,
2014 WL 4744789 (W.D. Tex. Sept. 23, 2014). Today we make explicit what our cases like
Qureshi have long recognized: the Supreme Court overruled Williams v. Ezell to the extent
it states that a Rule 41 dismissal deprives a court of jurisdiction to rule on a fee request or
other ancillary matter. See Qureshi, 600 F.3d at 525; see also DunsterLive, LLC v. LoneStar
LogosMgmt. Co., 908 F.3d 948, 951 (5th Cir. 2018) (reviewing order, entered after Rule 41
dismissal, that denied fee request and affirming because a dismissal without prejudice does
not produce a prevailing party).

3

A3

Case: 20-10386

Document: 00515664978

Page: 4

Date Filed: 12/08/2020

No. 20-10386

at 395 (recognizing that “even ‘years after the entry of a judgment on the
merits,’ a federal court could consider an award of counsel fees” (quoting
Whitev. N.H. DepytofEmp. Sec., 455 U.S. 445,451 n.13 (1982))).
Instead of accepting our earlier ruling, Automation Support has
inundated the district court and our court with rounds of frivolous filings
attempting to secure a different outcome. Because of Automation Support’s
stubborn, bad-faith refusal to recognize what we held three years ago,
defendants may file a motion with this court for appellate attorney’s fees
under 28 U.S.C. § 1927.
***

“We meant what we said, and we said what we meant.” See DR.
Seuss, Horton Hatches the Egg (1940). We once again AFFIRM
the judgment of the district court.

4

A4

Case 3:14-cv-04455-BK Document 58 Filed 02/14/17

Page 1 of 6 PagelD 664

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
AUTOMATION SUPPORT, INC., et al.,
Plaintiffs,
v.
WARREN DAVID HUMBLE, et al.,
Defendants.

§
§
§
§
§
§
§

Civil Case No. 3:14-CV-4455-BK

ORDER
The Court is called upon to determine whether Defendants Warren David Humble and
Humble Design, LLC (collectively “Defendants”) are entitled to an award of attorneys’ fees and
costs pursuant to their Rule 54 Motion for Entry ofAward ofAttorney's Fees and Costs. Doc. 51
(the “Fee Motion”). After having carefully considered the pleadings, briefs, and applicable case
law, Defendants’ motion is GRANTED.
A. Procedural History
In December 2014, Plaintiffs filed a complaint against Defendants as well as a third
defendant, Becky Wallace. Doc. 1. Plaintiffs alleged claims against Defendants for (1) breach
of contract; (2) breach of fiduciary duty; (3) tortious interference with a contract; (4)
misappropriation of trade secrets; and (5) violation of the Texas Theft Liability Act (the
“TTLA”). Doc. 1 at 10. 12-17. In due course, Wallace was dismissed from the case after filing a
Suggestion ofBankruptcy. Doc. 42: Doc. 43.
Defendants filed their Second Amended Answer to Plaintiffs’ complaint in which they
pled for recovery of their attorneys’ fees and costs under the TTLA and the Texas Uniform Trade
Secrets Act. Doc. 34 at 10 (citing Tex. Civ. Piiac. & Rem. Code, §§ 134.005(b), 134A.005(1)).
On July 15, 2016, Defendants moved for summary judgment. Doc. 46. On August 5, 2016, the

A5

Case 3:14-cv-04455-BK Document 58 Filed 02/14/17

Page 2 of 6 PagelD 665

parties filed a Joint Stipulation of Voluntary Dismissal with Prejudice ofPlaintiffs' Claims
Against Defendants (the “Joint Stipulation”). Doc. 50. The Joint Stipulation contained a
provision reserving Defendants’ right to seek recovery of their attorneys’ fees and costs from
Plaintiffs. Doc. 50. Shortly thereafter, Defendants filed this Fee Motion invoking the TTLA,
seeking recovery of their attorneys’ fees and costs from Plaintiffs. Doc. 51 at 12.
B. Applicable Law
The TTLA provides that u[e]ach person who prevails in a suit under this chapter shall be
awarded court costs and reasonable and necessary attorney’s fees.” Tex. Civ. Prac. & Rem.
Code § 134.005(b). The award of attorneys’ fees to a prevailing party in a TTLA action is
mandatory. Arrow Marble, LLC v. Estate of Killian, 441 S.W.Sd 702, 705 (Tex. App.—Houston
[1st Dist.] 2014) (citing Bocquet v. Herring, 972 S.W.2d 19, 20 (Tex. 1998) (“Statutes providing
that a party ‘may recover,’ ‘shall be awarded,’ or ‘is entitled to’ attorney fees are not
discretionary.”)); see also Merritt Hawkins & Assoc., LLC v. Gresham, No. 13-CV-0312-P, 2015
WL 10738602, at *7-8 (N.D. Tex. August 13, 2015) (Solis, J.) (citing Arrow Marble in noting
the mandatory nature of a TTLA award). A nonsuit does not affect any pending claim for
affirmative relief or motion for attorneys’ fees or sanctions. Epps v. Fowler. 351 S.W.3d 862,
863 (Tex. 2011).
For purposes of the TTLA, the “prevailing party” is the party who either successfully
prosecutes the theft action or successfully defends against it. Arrow Marble, 441 S.W. 3d at 705.
The TTLA requires the court to award attorneys’ fees to a prevailing defendant “without any
prerequisite that the claim is found to be groundless, frivolous, or brought in bad faith.” Air
Routing Ini 7 Carp. (Canada) v. Britannia Airways. Ltd., 150 S.W.Sd 682, 686 (Tex. App.
Houston f 14th Dist.] 2004). The TTLA claim must actually be litigated for either party to be

2

A6

Case 3:14-cv-04455-BK Document 58 Filed 02/14/17

Page 3 of 6 PagelD 666

entitled to fees. See Cigna Ins. Co. of Tex. r. Middleton, 63 S.WJd 901,903 (Tex. App.
Eastland 2001) (holding that employee was not entitled to attorneys’ fees under the TTLA
because both parties nonsuited their claims, leaving no issue upon which the employee could
have prevailed).
The Texas Supreme Court has held that “a defendant is a prevailing party when a plaintiff
nonsuits a case with prejudice” because the res judicata effect of doing so results in “a
permanent, inalterable change in the parties’ legal relationship to the defendant’s benefit.” Epps,
351 S.WJd at 868-69. A dismissal or nonsuit with prejudice is “tantamount to a judgment on
the merits.” Dean v. Riser, 240 F.3d 505, 509 (5th Cir. 2001).
In Arrow Marble, the defendant was held to be a prevailing party on a TTLA claim when
the trial court dismissed the plaintiffs claim with prejudice for lack of prosecution and because it
was not based on evidence presented at trial. 441 S.WJd at 706-07. The court, citing Epps
stated that it had “no doubt that a defendant who is the beneficiary of a nonsuit with prejudice
would be a prevailing party” for purposes of the TTLA.1 hi. at 708. Evidence of the amount of
fees owed may be based on the testimony of counsel without the necessity of producing billing
records. Holmes v. Concord Homes. Ltd., 115 S.WJd 310. 316-17 (Tex. App.—Texarkana
2003 ) (affirming award of attorneys’ fees based on the testimony of counsel without the
introduction of any billing records).
C. Parties’ Arguments
Defendants assert, as is relevant here, that they are entitled to an award of fees and costs
under the TTLA because they prevailed when Plaintiffs dismissed their claims with prejudice.

1 Indeed, even a dismissal without prejudice can result in an award of fees under the TTLA if the
defendant can demonstrate that the nonsuit was taken to avoid an unfavorable ruling on the
merits. Epps, 351 S.W. 3d at 870.
3

A7

Case 3:14-cv-04455-BK Document 58 Filed 02/14/17

Page 4 of 6 PagelD 667

Doc. 51 at 7-9. Defendants contend that from inception through the date on which they filed the
instant motion, their total attorneys’ fees were $65,676.00 and costs were $3,528.12. Doc. 5 1 at
12-16
Plaintiffs respond that one of the business owners, Renee McElheney, was diagnosed
with cancer and had multiple surgeries both before and after they filed their response to the Fee
Motion. Doc. 55 at 2-3. Plaintiffs assert that ultimately they decided to dismiss their case due to
the toll Ms. McElheney’s diagnosis had wrought. Doc. SS at.2-3. They argue that Defendants
are not prevailing parties under the TTLA because they cannot show that Plaintiffs dismissed
their case either to avoid an adverse judgment or because exceptional circumstances warrant an
award of attorneys’ fees under Rule 41 of the Federal Rules of Civil Procedure. Doc. 55 at 3-5.
Plaintiffs also note that the legal relationship between Defendants and Plaintiffs was immediately
terminated as soon as judgment was entered because the statute of limitations on their claims had
run at that point, and they could not timely file another complaint raising those claims. Doc. 55
at 7. Plaintiffs do not, however, dispute the amount of attorneys’ fees and costs claimed by
Defendant.
Defendants reply that it is immaterial why Plaintiffs agreed to a dismissal with prejudice
and, in any event, Plaintiffs agreed to Defendants’ reservation of their right to seek fees and costs
in the Joint Stipulation. Doc. 56 at 2-4. Moreover, Defendants contend, Rule 41 does not apply
in this case because they are seeking fees and costs based on the TTLA, an independent statute.
Doc. 56 at 4-5. Accordingly, they argue that they do not have to prove that Plaintiffs’ claims
were baseless because the TTLA does not require that showing. Doc. 56 at 6-8.

4

A8

Case 3:14-cv-04455-BK Document 58 Fiied 02/14/17 Page 5 of 6 PageiD 668

D. Analysis
The Court finds that Plaintiffs’ dismissal of their case with prejudice is akin to a
judgment on the merits of their claims. Epps. 351 S.W.3d at 868. As Defendants point out, the
reasons for the dismissal are not material. Neither can Plaintiffs’ reliance on Rule 41 save them
from entry of a fee award in Defendants’ favor. While the dismissal of Plaintiffs’ case was
entered pursuant to Rule 41, Defendants are relying on the TTLA and their reservation of rights
in the Joint Stipulation to secure an award of costs and fees. Rule 41 simply does not come into
play.
Plaintiffs’ reliance on Dean, 240 F.3d at 511 (5th Cir. 2001) is also misplaced. In that
case, the court held that a defendant was not a prevailing party simply because the plaintiffs had
voluntarily dismissed their claim with prejudice pursuant to Rule 41. Rather, the court ruled that
a defendant is only considered a prevailing party when the defendant can establish that the
plaintiffs dismissed their case to avoid a judgment on the merits and the suit was frivolous,
groundless, or without merit. Dean, 240 F.3d at 511 -12. The relevant fee statute in Dean,
however, governs fee awards in civil rights cases and is not mandatory, while the fee provision
under the TTLA is mandatory. See 42 U.S.C. § 1988(b) (providing that “the court, in its
discretion, may allow the prevailing party, other than the United States, a reasonable attorney’s
fee as part of the costs”) (emphasis added).
Finally, Plaintiffs claim that the Court made clear in Epps that a defendant must show
that a dismissal was taken voluntarily to avoid an adverse judgment and that the suit was baseless
to be entitled to attorneys’fees. Epps, 351 S.W.3d at 869-70. Plaintiffs misrepresent Epps. The
discussion in that section of the opinion pertains to cases that are dismissed without prejudice. In

5

A9

Case 3:14-cv-04455-BK Document 58 Filed 02/14/17

Page 6 of 6 PagelD 669

sum, Defendants are entitled to an award of their fees and costs. Because Plaintiffs do not
contest the amount of fees and costs sought, they have waived that argument.
E. Conclusion
For the reasons discussed above, Defendants’ Rule 54 Motion for Entry ofAward of
Attorney s Fees and Costs, Doc. 51. is GRANTED. Plaintiffs are ORDERED to pay to
Defendants, within 60 days of the date of this Order, attorneys’ fees in the amount of $65,676.00
and costs in the amount of $3,528.12.
SIGNED February 14, 2017.
/

y

HARRIS TOLIVER
UNDERSTATES MAGISTRATE JUDGE

6

A10

Case 3:14-cv-04455-BK Document 122 Filed 03/11/20 Page lot 4 PagelD 1728

In the United States District Court
For the Northern District of Texas
Dallas Division
Automation Support, Inc. et al.,
Plaintiffs,

§
§
§

v.

§

Humble Design LLC,
Warren David Humble,
Defendants.

§
§
§
§

Civil Case No. 3:14-CV-4455-BK

Order
Before the Court are Plaintiff Automation Support, Inc. d/b/a Technical Support’s
Federal Rule of Civil Procedure Rule 60(b) Motion for Relieffrom Judgment, Doc. 114, and
Motion to Strike, Doc. 119, as well as Defendants ’ Motion for A ttorney’s Fees and Pre-Filing
Injunction, Doc. 116. As detailed below, Plaintiffs motions are DENIED, and Defendants’
motion is GRANTED to the extent stated herein.
As all concerned are thoroughly familiar with this case, the Court will be brief.1 In
December 2014, Automation Support sued Defendants for (1) breach of contract; (2) breach of
fiduciary duty; (3) tortious interference with a contract; (4) misappropriation of trade secrets; and
(5) violation of the Texas Theft Liability Act (the “TTLA”). Doc. 1 at 10, 12-17. Eventually the
parties filed a joint stipulation of voluntary dismissal with prejudice under Federal Rule of Civil
Procedure 41(a)(l)(A)(ii).

1 Unless otherwise noted, the facts that follow are drawn from the most recent appellate decision
dismissing “movant” Todd Phillippi’s appeal for lack of jurisdiction. Automation Support v.
Humble Design, LLC, No. 19-10769, 2020 WL 1042509 (5th Cir. March 3, 2020) (recognizing
that the district judge lacked jurisdiction to overturn this Court’s orders).

A11

Case 3:14-cv-04455-BK Document 122 Filed 03/11/20

Page 2 of 4 PagelD 1729

Defendants then sought attorney’s fees under the TTLA, which entitles a prevailing party
to fees and costs. The Court granted the motion and ordered Automation Support to pay
$69,204.12. Automation Support appealed that ruling as well as the Court’s denial of its request
to vacate the judgment under Federal Rule of Civil Procedure 60. The Court of Appeals for the
Fifth Circuit affirmed both orders and remanded for an award of appellate attorneys’ fees, and
the Court subsequently awarded Defendants an additional $33,997.58. In the meantime, defense
counsel withdrew from the case. Doc. 84.
What followed was an onslaught ofpro se filings by Automation Support’s non-attorney
owners/principals, Renee and Billy McElheney, as well as disbarred attorney Todd Phillippi,
• who variously styled themselves as Automation Support’s “owners/operators and persons
financially responsible,” “parties in privity and party representatives,

movants,” and

“assignees” in an effort to act on that entity’s behalf. The filings purported to either seek relief
from the original judgment already affirmed by the Fifth Circuit or to “appeal” this Court’s
orders to the district judge originally assigned to the case. See Doc. 88; Doc. 97; Doc. 100; Doc.
101; Doc. 103;Doc. 107;Doc. 109; Doc. 111. These pleadings were not only legally
impermissible because Automation Support was not represented by counsel, they were frivolous
in every sense, wasting both Defendants’ resources as well as the Court’s. This activity
ultimately led to a number of pleadings being stricken as well as a filing ban. Doc. 91; Doc. 92;
Doc. 95; Doc. 102; Doc. 105.
Nevertheless, Automation Support is now back with another Rule 60(b) motion. This
time, it has found an attorney to regurgitate the same failed arguments that both this Court and
the Fifth Circuit have repeatedly rejected. The Court will not reiterate what it has said before —

2

A12

Case 3:14-cv-04455-BK Document 122 Filed 03/11/20

Page 3 of 4 PagelD 1730

Automation Support’s arguments fail for the same reasons they always have. As learned counsel
should be well aware.
Defendants’ response to the Rule 60(b) motion does merit discussion, however, because
they seek another award of attorneys’ fees as well as a pre-filing injunction to prevent further
harassment by Automation Support and those who purport to act on its behalf. Doc. 116.
Defendants assert that they are entitled to fees under either the TTLA, as they continue to be
prevailing parties, or pursuant to 28 U.S.C. § 1927, which provides for an award of fees directly
against counsel. Doc. 116 at 7-8. The Court does not find that the TTLA provides for a
continuing award of fees at this stage of the litigation. Moreover, as counsel for Automation
Support is relatively new to this case, the undersigned declines at this juncture to sanction him
financially or otherwise.
However, the Court finds well taken Defendants’ request for a pre-filing injunction in this
case. Accordingly, due to their continued bad faith conduct, Automation Support, Todd
Phillippi, Renee McElheney, Billy McElheney, and anyone purporting to act on behalf ofany of
them are barred from filing any additional documents in this case without first obtaining leave of
Court — with the exception of a notice of appeal from this order.
If any attempt is made to file any such document without first obtaining leave of Court,
the Clerk is DIRECTED to immediately STRIKE it from the docket. Any individual or entity
found to be in violation of this order will be subject to further sanctions, including monetary
penalties, revocation ofelectronic filing privileges, referral to the appropriate disciplinary

3

A13

Case 3:14-cv-04455-BK Document 122 Filed 03/11/20

Page 4 of 4 PagelD 1731

authorities, and the like. Finally, Defendants are not required to respond to any further filings in
this case, unless directed by the Court to do so.
SO ORDERED on March 11, 2020.

y

-

UNKTED/STATES MAGISTRATE JUDGE

4

A14

Case: 20-10386
Document: 00515809543 Page: 1 Date Filed: 04/06/2021
Case 3:14-cv-04455-BK Document 131 Filed 04/06/21 Page 1 of 3 PagelD 1746

tHmteti States Court of Appeals:
for tlje Jftftfj Circuit
No. 20-10386

Automation Support, Incorporated, doing business as
Technical Support,
Plaintiff—Appellant,
Todd Phillippi
Movant—Appellant,
versus
Humble Design, L.L.C.; Warren David Humble,
Defendants—Appellees.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:14-CV-4455

Before Wiener, Costa, and Willett, Circuit Judges.
Per Curiam;
This order concerns a motion for an award of attorney’s fees by
Appellees Humble Design and Warren David Humble for the second
unsuccessful appeal brought by Appellants Automation Support and Todd
Phillippi. The court’s opinion noted that the appellees had the right to obtain

A15

Case: 20-10386
Document: 00515809543 Page: 2 Date Filed: 04/06/2021
Case 3:14-cv-04455-BK Document 131 Filed 04/06/21 Page 2 of 3 PagelD 1747
20-10386

fees, Automation Support, Inc. v. Humble Design} L.L.C., 982 F.3d 392, 395
(5th Cir. 2020). The motion is opposed only by Automation Support.
Beginning with their ill-fated first appeal, Automation Supportj Inc. v.
Humble Design^ L.L.C., 734 F. App’x 211 (5th Cir. 2018), Automation
Support and Phillippi have continuously challenged the district court’s
authority to award statutorily permitted attorney’s fees. Our court’s initial
opinion affirmed the district court’s power to award those fees under the
Texas Theft Liability Act (TTLA). Automation Support, 734 F. App’x at 215lb. Our most recent opinion again underscored the court’s ability to award
fees and explained that the appellees could also seek fees for this appeal.
Automation Support, 982 F.3d at 394-95.
The court characterized some arguments advanced by the parties as
being in bad faith and indicated that a fee award for the appeal was justified
for that reason. Id. at 395. But given that this dispute involves multiple
appellants, not all of whom put forward these arguments, the simplest path
is to award fees based on the TTLA. That statute enables prevailing parties
to recover “court costs and reasonable and necessary attorney’s fees”
regardless of bad faith. Tex. Civ. Prac. & Rem. Code § 134.005(b).
This includes appellate fees as we recognized in awarding appellate fees for
the last appeal. Automation Support, 734 F. App’x at 216.
The appellees’ opposed motion for attorney’s fees therefore is
GRANTED IN PART. The court has reviewed appellees’ billing records
and concludes that $20,000 in appellate fees is reasonable. We slightly
reduced the fee request to account for some uncovered billing entries, such
as time spent reviewing a petition for certiorari to the Supreme Court for the
last appeal. Because the appellants made different arguments in this appeal
requiring distinct responses, it is reasonable is to hold Automation Support
and Phillippi responsible for $10,000 each.

2

A16

Case: ZO-Uttas

Document: UOblbbybOd/'

Page: 1

Date Hied: U1/US/2U21

States; Court of Appeals:
for tje Jfiftlj Circuit
No. 20-10386

Automation Support, Incorporated, doing business as
Technical Support
Plaintiff—Appellant,
Todd Phillippi,
Movant—Appellant,
versus
Humble Design, L.L.C.; Warren David Humble >
Defendants—Appellees.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:14-CV-4455

ON PETITION FOR REHEARING
Before Wiener, Costa, and Willett, Circuit Judges.
Per Curiam:
IT IS ORDERED that appellant Todd Phillippi’s petition for
rehearing is DENIED.

A17

Case 3:14-cv-04455-BK Document 50 Filed 08/05/16

Page lot 2 PagelD559

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
AUTOMATION SUPPORT, INC. d/b/a
TECHNICAL SUPPORT, and
SOYOKAZE, INC.,
Plaintiffs,
v.

BECKY WALLACE,
WARREN DAVID HUMBLE and
HUMBLE DESIGN, LLC
Defendants.

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. 3:14-cv-04455
JURY

JOINT STIPULATION OF VOLUNTARY DISMISSAL WITH PREJUDICE
OF PLAINTIFFS’ CLAIMS AGAINST DEFENDANTS
COME NOW, Automation Support, Inc. d/b/a Technical Support, and Soyokaze, Inc.
(“Plaintiffs”) and Warren David Humble and Humble Design, LLC (“Defendants”), and pursuant
to Federal Rule of Civil Procedure 41(a)(l)(A)(ii), hereby dismiss with prejudice all claims and
all associated relief requested in such claims filed in this case by Plaintiffs.
Defendants reserve the right to seek recovery of their attorney’s fees and costs from
Plaintiffs in accordance with their answer and motion for summary judgment and supporting
brief on file herein (Dkt. 34, 46-47).
Respectfully submitted,

/s/ Michael P. Moore
Joseph F. Cleveland, Jr.,
Texas Bar No. 04378900
icleveland@belaw.com
Michael P. Moore,
Texas Bar No. 24075587
mmoore@belaw.com
Joint Stipulation of Voluntary Dismissal With Prejudice of Plaintiffs’ Claims Against Defendants

A18

Page 1

1

*.

1

.•

Case 3:14-cv-04455-BK Document 50 Filed 08/05/16

Page 2 of 2 PagelD560

BRACKETT & ELLIS
A Professional Corporation
100 Main Street
Fort Worth, Texas 76102-3090
Telephone: (817) 338-1700
Facsimile: (817) 870-2265
ATTORNEYS FOR PLAINTIFFS

/s/ Eric C. Wood
Eric C. Wood
State Bar No. 24037737
erie>wood@solidcounseLcom
SCHEEF & STONE, LLP
2600 Network Blvd., Suite 400
Frisco, TX 75034
(214) 472-2100
(214) 472-2150 FAX
ATTORNEY FOR DEFENDANTS

Joint Stipulation of Voluntary Dismissal With Prejudice of Plaintiffs’ Claims Against Defendants

A19

Page 2

